Case: 20-2954

Document: 13-1

Filed: 03/11/2021

Pages: 1

UNITED STATES COURT OF APPEALS FOR THE SEVENTH CIRCUIT

Everett McKinley Dirksen United States Courthouse
Room 2722 - 219 S. Dearborn Street
Chicago, Illinois 60604

Office of the Clerk
Phone: (312) 435-5850
www.ca7.uscourts.gov

CERTIFIED COPY
PLRA C.R. 3(b) FINAL ORDER
March 11, 2021
BRALEN LAMAR JORDAN,
Plaintiff - Appellant
Seventh

No. 20-2954

v.
KATHLEEN H. SAWYER, et al.,
Defendants - Appellees

Originating Case Information:
District Court No: 3:20-cv-50121
Northern District of Illinois, Western Division
District Judge Rebecca R. Pallmeyer
The pro se appellant was DENIED leave to proceed on appeal in forma pauperis by the
district court on November 6, 2020. The pro se appellant has neither paid the $505.00
appellate fees nor filed a motion for leave to proceed on appeal in forma pauperis in the
Appellate Court, as prescribed in Fed. R. App. P. 24(a). Accordingly,
IT IS ORDERED that this appeal is DISMISSED for failure to pay the required docketing
fee pursuant to Circuit Rule 3(b).
IT IS FURTHER ORDERED that the appellant pay the appellate fee of $505.00 to the clerk
of the district court. The clerk of the district court shall collect the appellate fees from the
prisoner's trust fund account using the mechanism of Section 1915(b). Newlin v. Helman, 123
F.3d 429, 433 (7th Cir. 1997).

form name: c7_PLRA_3bFinalOrder(form ID: 142)

(EXtfiJgCr QF APPEAL. AbDg£SSE^ 'EM U.s, tot STgJQ-COQP-T <Sub£fc Oa^ iJohnsmA
Case: 3:20-cv-50121 Document #: 53 Filed: n/Ub/20 Page 1 of 2 PagelD #:338

IN THE UNITED STATES DISTRICT COURT FOR THE
NORTHERN DISTRICT OF ILLINOIS
Bralen Lamar Jordan (22702-009),
Plaintiff,
v.

Kathleen Hawkins Sawyor, et al.,
Defendants.

)
)
)
)
)
. )
)
)
)

No. 20 CV 50121
Appeal No. 20-2954
Judge Iain D. Johnston)
"i

ORDER
* Plaintiffs motion to proceed informa pauperis on appeal T521 is denied* The Court certifies
that the appeal is not taken in good faith. See 28 U.S.C. § 1915(a)(3). To proceed with his appeal,
Plaintiff must either pay the appellate fee of $505 within fourteen days or seek review of this
Court’s denial of his in forma pauperis request in the United States Court of Appeals for the
Seventh Circuit within thirty days of the entry of this order .''‘Plaintiffs failure to either pay the
filing fee nr seek review of this order mav result in the Court of Appeals’ dismissal of his appeal
fnr failing to prosecute it? The Clerk is directed to send a copy of this order to Plaintiff and to the
United States Court of Appeals for the Seventh Circuit. Plaintiffs motion for leave to amend his
complaint [50] is stricken for the reasons stated in the Court’s October 22, 2020 order.
STATEMENT
Plaintiff Bralen Jordan, a federal prisoner at USP Thomson, filed this pro se lawsuit
pursuant to Bivens v. Six Unknown Agents of Federal Bureau ofNarcotics, 403 U.S. 388 (1971),
alleging Thomson officials used excessive force against him during his transfer to Thomson on
December 13, 2019. By order dated September 25, 2020, another member of this Court dismissed
this case because it was apparent Plaintiff had not exhausted administrative remedies prior to filing
the lawsuit and entered final judgment. (Dkts. 39, 40.) Plaintiff appeals the judgment in this case
and seeks leave to proceed in forma pauperis (IFP) on appeal. (Dkts. 44, 52.) Plaintiffs motion
for leave to appeal in forma pauperis is denied.
Pursuant to 28 U.S.C. § 1915(b¥ll a prisoner seeking to appeal inj&r-ma-pauperis must
pay the full filing fee. He mav
leave to nav the fee over time bv submitting an
. affidavit including a statement of assets, along with “a certified copy of the trust fund account^
statement . . . fhr the prisoner fnr the fi-mQnth_perinrl immediately preceding the filing of the . - .

’’-28-U.S C. S 1915fa¥1W2). An inmate may not proceed IFP on appeal when
notice of appeal
the prisoner: (1) has not established indigence; (2) appeals in bad faith; or (3) has three strikes and
is not under imminent danger of serious physical injury. See 28 U.S.C. § 1915(a)(2)-(3), (g); see
also Fed. R. App. P. 24(a)(3)(A)-(B).

1

Case: 3:20-cv-50121 Document #: 53 Filed: 11/06/20 Page 2 of 2 PagelD #:339

?! Plaintiff here has establish‘d hie in/h'gpncp and has not accrnedJ-.hree strikes. Therefore, the
fesiiFhr^ieThgrteTras-appestl^fa-^o.oQ faith/ “fAln appeal taken in ‘good faith’- is an.appeal that.
ohiectivdy-considered^r-alses-noR-frivolous^colorable issues.” Eiler v. City of Pana, No. 14-CV3063, 2014 WL 11395155, at *1 (C.D. Ill. Nov. 1, 2014)T£ollecting cases); Lee v. Clinton, 209
F.3d 1025, 1026 (7th Cir. 2000) (explaining that a finding of no good faith is comparable to a
finding that an appeal would be frivolous). “An appeal is frivolous when the result is obvious or
when the appellant’s argument is wholly without merit.” Smeigh v. Johns Manville, Inc., 643 F.3d
554, 565 (7th Cir. 2011) (citation and internal quotation marks omitted). If the fli.strict co.urt
certifies that an appeal is not taken in good faith, the appellant cannot prosecute the appeal in
forma pauperis, but rather must pay .the appellate fees in full for the appeal to go forward.
The Court finds that the appeal is not taken in good faith as Plaintiff fails to articulate any
non-frivolous colorable issues in his notice of appeal that merit review. Plaintiff does not provide
the basis for his_nppeal in the notice of apnea 1 hut does indicate in_hj.sJ-EB_app.lication that he.

disagrees with the Court’s conclusion that he failed to exhaust administrative remedies. (Dkt. 52,
pg. 1.) Plaintiffs submissions in this case, however, make it apparenrtFllMTrot-complete the
grievance process before filing this lawsuit. (See Dkts. 1-1, pg. 24; Dkt. 24, pgs. 2-3.) Although
prisoners need not allege that they have exhausted administrative remedies, dismissal on the
pleadings is proper where a plaintiff “does not, and clearly could not, plead that he exhausted all
administrative remedies.” Massey v. Wheeler, 221 F.3d 1030, 1034 (7th Cir. 2000). Plaintiff does
not present any documentation or arguments suggesting the Court’s determination was incorrect.
Accordingly, Plaintiff has not articulated, and the Court does not discern, any grounds for appeal.
The Court therefore certifies that this appeal is not taken in good faith. Plaintiff must pay
the full $505 filing fee within fourteen days of the date of this order or the Court of Appeals may
dismiss his appeal for want of prosecution. See Evans v. III. Dep’t of Corr., 150 F.3d 810, 812 (7th
Cir. 1998). Payment shall be sent to the Clerk, United States District Court, 219 South Dearborn
Street, Chicago, Illinois 60604, attn: Cashier’s Desk, 20th Floor. Payment should clearly identify
the name of the party to whom the payment applies, as well as the district court and appellate court
case numbers assigned to this action. If Plaintiff wishes to contest this Court’s finding that his
appeal is not, taken in good faith, be must file a motion with the United States Court of Appeal!
-fhiLthg_.Spvp.nth fTroiiit seeking review of this Court’s certification, within thirty days of entry^f
.this orderf Fed. R. App. P. 24(a)(5).!

Date: November 6, 2020

By:
Iain D. Johnston
United States District Judge

2

* trStUiV>tT 1 JtJiTEfXTATK. Cci ifcrs oF APFftM nrnr iDft jir fViw.7 np 'T')^r,->fu\^/f

\SM isseb^

UNITED STATES COURT OF APPEALS FOR THE SEVENTH CIRCUIT

Office of the Clerk
Phone: (312) 435-5850
www.ca7.uscourts.gov

Everett McKinley Dirksen United States Courthouse
Room 2722 - 219 S. Dearborn Street
Chicago, Illinois 60604

ORDER
January 11, 2021
Before
DIANE S. SYKES, Chief Judge
FRANK H. EASTERBROOK, Circuit Judge

BRALEN LAMAR JORDAN,
Plaintiff - Appellant
No. 20-2954

v.
KATHLEEN H. SAWYER, et al.,
Defendants - Appellees

Originating Case Information:
District Court No: 3:20-cv-50121
Northern District of Illinois, Western Division
District Judge Rebecca R. Pallmeyer
The following are before the Court:
1.

PLRA MEMORANDUM IN SUPPORT OF MOTION TO PROCEED ON APPEAL IN
FORMA PAUPERIS, filed on December 4, 2020, by the pro se appellant.

2.

MOTION FOR PERMISSION TO APPEAL IN FORMA PAUPERIS, filed on
January 8, 2021, by the pro se appellant.

Upon consideration of the request for leave to proceed as a pauper on appeal, the appellant's
motion filed under Federal Rule of Appellate Procedure 24, the district court's order pursuant
to 28 U.S.C. § 1915(a)(3) certifying that the appeal was filed in bad faith, and the record on
appeal.
IT IS ORDERED that the motion for leave to proceed on appeal in forma pauperis is DENIED.
The appellant has not identified a good faith issue that the district court erred in dismissing his
case. The appellant shall pay the required docketing fee within 14 days, or this appeal will be
dismissed for failure to prosecute pursuant to Circuit Rule 3(b).
form name: c7_Order_3J(form ID: 177)

Case: 3:20-cv-50121 Document #: 39 Filed: 09/25/20 Page 1 of 4 PagelD #:277

IN THE UNITED STATES DISTRICT COURT FOR THE
NORTHERN DISTRICT OF ILLINOIS
WESTERN DIVISION
Bralen Lamar Jordan (22702-009),
Plaintiff,
v.
Kathleen Sawyor, et al.,
Defendants.

)
)
)
)
)
)
)
)
)
)

Case No. 20 C 50121
Hon. Rebecca R. Pallmeyer

ORDER
Plaintiffs amended complaint [35] is dismissed without prejudice for failure to exhaust
administrative remedies. All pending motions are denied as moot. This case is closed. Final
judgment shall enter.
STATEMENT
Plaintiff Bralen Jordan is a federal prisoner at USP Thomson. In his amended complaint,
Jordan asserts claims pursuant to Bivens v. Six Unknown Agents of Federal Bureau of Narcotics,
403 U.S. 388 (1971).1 The court reviews those claims pursuant to 28 U.S.C. § 1915A, which
requires courts to screen complaints filed by prisoners to ensure they state a valid claim against
parties not immune from suit. See Jones v. Bock, 549 U.S. 199, 214 (2007); Turley v. Rednour,
729 F.3d 645, 649 (7th Cir. 2013). As explained in previous orders, a complaint must “give the
defendant fair notice of what the claim is and the grounds upon which it rests” and provide
sufficient facts “to raise a right to relief above the speculative level.” Bell At!. Corp. v. Twombly,

1
Plaintiff checked the box on the complaint form indicating that this suit was brought under
42 U.S.C. § 1983. Section 1983, however, applies to state, not federal, officials who violate a
person’s constitutional rights. Ziglarv. Abbasi, — U.S. —, 137 S. Ct. 1843, 1854 (2017). Actions
against federal officials for violations of a person’s constitutional rights must be brought under
the implied private right of action theory first set forth in Bivens. Plaintiff also listed 42 U.S.C. §§
233, 1202(e), 1231 as bases for his claims. These statutes are either inapplicable to Plaintiff’s
lawsuit or do not exist.
The court also notes that Plaintiff has not invoked the Federal Tort Claims Act (FTCA), 28
U.S.C. §§ 1346(b)(1); 2679(b) or named the United States as a Defendant. Because a judgment
on an FTCA claim may preclude later judgment against the individual defendants, 28 U.S.C. §
2676, the court declines to read an FTCA claim into the present complaint at this time—but the
court notes that such a claim, like a Bivens claim, requires exhaustion of available administrative
remedies prior to filing suit. See 28 U.S.C. § 2675; 42 U.S.C. 1997e(a). Based on Plaintiff’s
submissions in this case, it appears likely he did not exhaust those remedies before filing this
lawsuit. (see [16-1], pg. 1.)

1

Case: 3:20-cv-50121 Document #: 39 Filed: 09/25/20 Page 2 of 4 PagelD #:278

550 U.S. 544, 555 (2007); Ashcroft v. Iqbal, 556 U.S. 662, 678 (2009). On initial review, courts
“accept the well-pleaded facts in the complaint as true,” Alam v. Miller Brewing Co., 709 F.3d 662,
665-66 (7th Cir. 2013), and construe pro se complaints liberally. See Erickson v. Pardus, 551 U.S.
89, 94 (2007) (per curiam). The court, however, properly considers both the complaint and other
public records in reviewing the complaint. See Olson v. Champaign County, III., 784 F.3d 1093,
1097 n.1 (7th Cir. 2015) (“[W]e may take judicial notice of public records not attached to the
complaint in ruling on a motion to dismiss under Rule 12(b)(6).”)
Plaintiffs first complaint was dismissed because he had improperly joined unrelated
claims in a single lawsuit. (See [33].) Plaintiff has now eliminated all Defendants but one:
Thomson correctional officer Ellis Fells. (See [35].) As in the original complaint, Plaintiff states
that between December 12 and 13, 2019, he was transferred from USP Lewisburg to USP
Thomson by bus. (Id., pg. 6.) In the early morning hours on December 13, 2019, the bus arrived
at USP Terre Haute in Indiana to transfer the inmates to a second bus operated by Defendant
Fells, Thomson officer McDowell, and several other Thomson correctional officers, which would
transport them the rest of the way to Thomson. (Id.)
Plaintiff states he suffers from several medical conditions, including diabetes. He alleges
that he began having a “sugar attack” at Terre Haute and his hands swelled to the size of softballs.
([35], pg. 6.) Plaintiff told Defendant Fells that he had chronic medical conditions, needed his
medication, and that his handcuffs were too tight, but Fells responded by telling Plaintiff to “shut
up.” (Id.) Plaintiff repeated that his handcuffs were too tight and that he had chronic medical
conditions, at which point Fells allegedly struck Plaintiffs face with his fist and McDonnell struck
the other side of Plaintiff’s face. (Id.) At Fells’s instruction, several other officers punched Plaintiff’s
abdomen and tackled him to the ground, scraping his knees and knuckles. (Id., pg. 10.) Plaintiff
states he did not receive any medical attention for these injuries or for his diabetes before he was
placed on the bus to Thomson. (Id.)
When the bus arrived at Thomson, Fells notified prison medical personnel that Plaintiff
was diabetic and in distress, but also told medical staff Plaintiff had spit on him and that Plaintiff
should be placed in four-point restraints. (Id., pg. 7.) In fact, Plaintiff was placed in the shower
when he arrived at Thomson, not in four-point restraints. (Id.) Medical personnel at Thomson
refused to treat his diabetes or the injuries he received during the transfer. (Dkt. 35, pg. 7.)
Based on these events, Plaintiff seeks to state claims that Defendant Fells used excessive
force against him and was deliberately indifferent to Plaintiffs medical needs during the bus
transfer on December 13, 2019.
As an initial matter, although Plaintiff includes allegations relating to his medical treatment
after he arrived at USP Thomson, Defendant Fells was not personally involved in Plaintiffs
medical treatment after their arrival at the prison. Section 1983 creates a cause of action based
on personal liability and predicated on fault, so to be held liable, an individual must have caused
or participated in a constitutional deprivation. See Kuhn v. Goodlow, 678 F.3d 552, 556 (7th Cir.
2012); Pepper v. Vill. of Oak Park, 430 F.3d 809, 810 (7th Cir. 2005). Consequently, Fells was
not responsible for any alleged deficiencies in Plaintiff’s medical treatment once at Thomson and
he in fact informed medical staff of Plaintiffs medical conditions. To the extent Plaintiff is
2

Case: 3:20-cv-50121 Document #: 39 Filed: 09/25/20 Page 3 of 4 PagelD #:279

attempting to hold Fells liable for his medical treatment at Thomson, any such claims are
dismissed.
Plaintiff also refers to Kathleen Sawyor, Harley Lappins, Charles Samuels, Ian Connors,
Jeffery Ormond, E. Bradley, J.E. Drueger, Darrion Howard, Richard Winter, David Ebbert, C.
Rivers, and “other department heads” as defendants in the body of the complaint, but does not
name them as defendants in the case caption. (See [35], pg. 6.) Plaintiff appears to include these
individuals in the amended complaint because of their supervisory roles in the federal prison
system. When parties are not listed in the caption, this court will not treat them as defendants.
See Fed. R. Civ. P. 10(a) (noting that the title of the complaint “must name all the parties”); Myles
v. United States, 416 F.3d 551, 551-52 (7th Cir. 2005) (holding that to be properly considered a
party, a defendant must be “specif[ied] in the caption”). Moreover, there is no respondeat superior
(or supervisor) liability under § 1983, see Kinslow v. Pullara, 538 F.3d 687, 692 (7th Cir. 2008),
so high-level officials cannot be held liable under § 1983 merely because they oversee jail
operations. A complaint’s allegations must indicate that the supervisory official was somehow
personally involved in the constitutional deprivation. See Perkins v. Lawson, 312 F.3d 872, 875
(7th Cir. 2002); see also Perez v. Fenoglio, 792 F.3d 768, 781 (7th Cir. 2015) (plaintiff “must
allege that the defendant, through his or her own conduct, has violated the Constitution.”). Plaintiff
alleges no facts tying these officials to any of the alleged incidents. Any claims Plaintiff may be
attempting to assert against these individuals are dismissed.
With regard to the claims against Defendant Fells, documents Plaintiff has submitted in
this lawsuit make it apparent that he did not exhaust administrative remedies prior to filing this
lawsuit. The Prison Litigation Reform Act (PLRA) requires that prisoners exhaust administrative
remedies before pursuing their claims in federal court. 42 U.S.C. § 1997e(a). The PLRA’s
exhaustion requirement applies to Bivens actions, Porter v. Nussle, 534 U.S. 516, 524 (2002),
and failure to exhaust will result in dismissal of the unexhausted claims. McNeil v. United States,
508 U.S. 106, 113 (1993); Perez v. Wis. Dep’tofCorr., 182 F.3d 532, 535 (7th Cir. 1999); Smoke
Shop, LLC v. U.S., 761 F.3d 779, 787 (7th Cir. 2014). “Thus, if a prison has an internal
administrative grievance system through which a prisoner can seek to correct a problem, then the
prisoner must utilize that administrative system before filing a claim” in federal court. Massey v.
Helman, 196 F.3d 727, 733 (7th Cir. 1999).
As a general rule, prisoners need not allege that they have exhausted administrative
remedies; failure to exhaust is an affirmative defense. Jones v. Bock, 549 U.S. 199, 213-15
(2007); Walker v. Thompson, 288 F.3d 1005, 1009 (7th Cir. 2002). But the court may dismiss a
case “when the existence of a valid affirmative defense is [] plain from the face of the complaint.”
Walker, 288 F.3d at 1010; see Jones, 549 U.S. at 215; Massey v. Wheeler, 221 F.3d 1030, 1034
(7th Cir. 2000) (dismissal on the pleadings is proper where a plaintiff “does not, and clearly could
not, plead that he exhausted all administrative remedies”).
Proper exhaustion requires that a prisoner file grievances and appeals in the place, at the
time, and in the manner that the prison’s administrative rules require. Pozo v. McCaughtry, 286
F.3d 1022, 1025 (7th Cir. 2002). The Bureau of Prisons (BOP) provides processes for pursuing
administrative remedies for federal inmates. See 28 C.F.R. §§ 542.10-542.19. BOP regulations
set forth the following steps to complete the administrative grievance process: (1) an informal
3

Case: 3:20-cv-50121 Document #: 39 Filed: 09/25/20 Page 4 of 4 PagelD #:280

attempt at resolution, 28 C.F.R. § 542.13(a); (2) an Administrative Remedy Request directed to
the warden, 28 C.F.R. § 542.14(a); (3) an appeal to the BOP Regional Director, 28 C.F.R. §
542.15(a); and finally (4) an appeal to the BOP General Counsel. Id. Completion of each of these
steps is required for an inmate to exhaust administrative remedies. McCoy v. Gilbert, 270 F.3d
503, 507 (7th Cir. 2001).
Plaintiff initiated this lawsuit on March 2, 2020. ([1-2], pg. 1.) The record shows, however,
that he had not completed the administrative process by then: On December 23, 2019, Plaintiff
submitted an Administrative Remedy Request regarding the December 13, 2019 events. ([1-1],
pg. 24.) Plaintiff subsequently submitted an appeal of that grievance to the BOP General Counsel
on March 25, 2020, and on May 22, 2020—well after filing this lawsuit—Plaintiff received notice
that the appeal was still under review. (See [24], pgs. 2-3.)
Because Plaintiff failed to exhaust administrative remedies, his claims are dismissed
without prejudice. This case is closed. All pending motions are denied as moot and final judgment
will enter. If Plaintiff wishes to appeal, he must file a notice of appeal with this court within thirty
days of the entry of judgment. See Fed. R. Arp. P. 4(a)(1). If Plaintiff appeals, he will be liable for
the $505.00 appellate filing fee. See Evans v. III. Dep't of Corr., 150 F.3d 810, 812 (7th Cir. 1998).
If Plaintiff seeks leave to proceed in forma pauperis on appeal, he must file a motion for leave to
proceed in forma pauperis in this court. See Fed. R. App. P. 24(a)(1).
ENTER:

Date:

September 25, 2020

REBECCA R. PALLMlYER
United States District Judge

4

0

